March 26, 2002

CHARLES E. BRAVO
SENIOR VICE PRESIDENT, CHIEF TECHNOLOGY OFFICER

ROBERT L. OTTO
VICE PRESIDENT, INFORMATION TECHNOLOGY

SUBJECT: 	 Audit Report - eServices Registration Application Development Review
           (Report Number EM-AR-02-004)

This report presents the results of our audit of the eServices Registration Application
Development (Project Number 01BS009IS000). This audit was a self-initiated review
that was included in our fiscal year 2002 Audit Workload Plan.

The audit disclosed Postal Service program management did not: (1) follow an
established systems development life cycle methodology during testing, (2) produce key
deliverables, and (3) always include key security features during systems development.
As a result, the Postal Service assumed an unnecessarily high risk that the application
would not be developed according to requirements, and the information security
requirements would not be independently validated and tested. Management has
terminated the eServices Registration application and plans to incorporate many of the
recommendations into the new integrated systems methodology being used to modify
the eCapabilities registration application. Management’s comments were responsive to
our findings and recommendations. We recommend closure of all recommendations.
Management’s comments and our evaluation of these comments are included in the
report.

We appreciate the cooperation and courtesies provided by your staff during the review.
If you have any questions or need additional information, please contact Robert Batta,
director, Electronic Commerce and Marketing, at (703) 248-2100, or me at
(703) 248-2300.


Ronald D. Merryman
Acting Assistant Inspector General
 for eBusiness

Attachment
cc: 	James W. Buie
     Wayne H. Orbke
    James L. Golden
    Susan M. Duchek
eServices Registration Application                                        EM-AR-02-004
 Development Review


                                     TABLE OF CONTENTS
 Executive Summary                                                              i


 Part I

 Introduction                                                                  1


     Background                                                                1

     Objectives, Scope, and Methodology                                        2

     Prior Audit Coverage                                                      2


 Part II

 Audit Results                                                                 4


      Systems Development Life Cycle Methodology Not Followed During           4

      System Testing 


           No Testing of Critical Security Features                            4

           Recommendations                                                     5

           Management’s Comments                                               5

           Evaluation of Management’s Comments                                 5


           End User Requirements Were Not Always Incorporated                  5

           Recommendation                                                      6

           Management’s Comments                                               6

           Evaluation of Management’s Comments                                 6


           Unit Test Results Were Not Formally Documented, Retained, or        6

            Approved

           Recommendation                                                      7

           Management’s Comments                                               7

           Evaluation of Management’s Comments                                 7


           Software Quality Assurance Representative Not Assigned              8

           Recommendation                                                      8

           Management’s Comments                                               8

           Evaluation of Management’s Comments                                 8


      Key Deliverables Not Always Produced                                     9

      Recommendation                                                          10

      Management’s Comments                                                   10

      Evaluation of Management’s Comments                                     10





                                        Restricted Information
eServices Registration Application                                  EM-AR-02-004
 Development Review


      Information Security Assurance Validation Not Accomplished
       11

      Recommendation
                                                   11

      Management’s Comments
                                            11

      Evaluation of Management’s Comments
                              11


      Other Observations
                                               12

      Recommendation
                                                   12

      Management’s Comments
                                            13

      Evaluation of Management’s Comments                               13


 Appendix A. Glossary                                                   14


 Appendix B. Management’s Comments                                      16





                                     Restricted Information
eServices Registration Application                                                                        EM-AR-02-004
 Development Review



                                    EXECUTIVE SUMMARY
    Introduction 	                   There are five major stages in the systems development life
                                     cycle. Each stage has several process points that need to
                                     be accomplished to develop a successful project. This
                                     report presents our audit of the testing and information
                                     security process points of the eServices Registration
                                     application. This is the first report in a series of Office of
                                     Inspector General (OIG) self-initiated reviews of Postal
                                     Service initiatives in the early phases of development. By
                                     early involvement in the process, the OIG can make
                                     recommendations to resolve issues in the early stages of
                                     development prior to system implementation. Studies
                                     indicated that it is up to 100 times more costly to make
                                     changes after a system is placed into production.

                                     Our objectives were to determine if Postal Service
                                     management followed: (1) sound systems development life
                                     cycle processes, (2) produced key deliverables as identified
                                     by Postal Service management and industry standards, and
                                     (3) considered appropriate application security features
                                     during the testing and information security process points of
                                     the development of eServices Registration application.

    Results in Brief	                Our review of the eServices Registration application found
                                     that Postal Service program management did not: (1) follow
                                     an established systems development life cycle1
                                     methodology during testing, (2) produce key deliverables,
                                     and (3) always include key security features during systems
                                     development.

                                     These problems occurred because program management:
                                     (1) did not use existing industry best practices to meet the
                                     needs of rapid application development,2 (2) attempted to
                                     meet an unrealistic system implementation date set by
                                     Postal Service management, and (3) did not map test plans
                                     to the system requirements document.

                                     As a result, the Postal Service assumed an unnecessarily
                                     high risk that the application would not be developed

1
 A systems development life cycle is a logical process by which systems analysts, software engineers,
programmers, and end-users build information systems and computer applications to solve business
problems and needs.
2
 Rapid Application Development is a system solution that allows system developers to quickly begin either
with or without clearly specified client requirements, but with flexibility in addressing them in an atmosphere
of partnership between the end-user and the developers.

                                                       i
                                           Restricted Information
eServices Registration Application                                                  EM-AR-02-004
 Development Review



                                according to requirements, and that the information security
                                requirements would not be independently validated and
                                tested.

                                During this audit, we briefed senior Postal Service officials
                                on the issues in this report. Following the briefing, the
                                planned October 2001 launch was suspended until
                                deficiencies noted during the review are corrected.

 Summary of                     We recommended management evaluate the testing
 Recommendations                process in lieu of the Postal Service requirements, retest the
                                system as necessary, and document the results. We also
                                recommended the Postal Service complete key deliverables
                                and conduct independent testing and validation during the
                                information security process.

 Summary of                     Following an OIG briefing with senior Postal Service officials
 Management’s                   on the identified issues, the planned October 2001 launch
 Comments                       date was suspended until deficiencies noted during the
                                review were corrected. Subsequently, the Postal Service
                                has conducted an assessment of the cost/development
                                impacts on both eServices Registration application and the
                                current eCapabilities registration application. Based on the
                                evaluation, it was determined that the eServices
                                Registration application would be terminated and that the
                                eCapabilities registration application would be enhanced to
                                meet business needs.

                                Based on this decision, management did not address the
                                specific recommendations in this report. However, many of
                                the recommendations are being incorporated in the new
                                integrated systems methodology being used to modify the
                                eCapabilities registration application. Management’s
                                comments, in their entirety, are included in Appendix B of
                                this report.

 Overall Evaluation of          Management’s comments are responsive. Since the
 Management’s                   eServices Registration application has been terminated, we
 Comments                       recommend closure of all recommendations. Programmatic
                                recommendations will be captured in a capping report.




                                               ii
                                     Restricted Information
eServices Registration Application                                                                          EM-AR-02-004
 Development Review


                                          INTRODUCTION
    Background	                     At the time of our audit, the Postal Service was developing
                                    the eServices Registration application to replace the
                                    eCapabilities registration and add login functionalities3 while
                                    providing additional features. The new application allows
                                    customers to sign on once to access numerous services,
                                    rather than signing on to each service.

                                    The Postal Service created partnerships with other Internet
                                    organizations to create affiliate websites and developed
                                    websites to provide better customer service. In order to use
                                    the Postal Service web-based services or affiliate
                                    co-branded applications, users would be required to register
                                    through the eServices Registration application. The Postal
                                    Service planned that the eServices Registration application
                                    would support co-branded applications such as Amazing
                                    Mail, Net Post CardStore and Global Shipping Services. In
                                    addition, the eServices Registration application would
                                    support Postal Service web-based services such as USPS
                                    eBillPay, Mailing Online, NetPost Certified, and Customer
                                    Care.

                                    Our review of the eServices Registration application
                                    occurred in the design phase during testing and evaluation.
                                    The chart below shows the two process points reviewed.




3
 Login functionalities provide a centralized platform for Postal Service customers to register for a wide
variety of Postal Service services that have an Internet-based interface or capability (eServices).

                                                       1
                                           Restricted Information
eServices Registration Application                                                               EM-AR-02-004
 Development Review



                                  During the testing process, the development team
                                  determines whether a software product meets its stated
                                  functional, technological, and security requirements. The
                                  information security process requires an independent team
                                  to validate that security policies have been incorporated into
                                  the system. Technical terms used in this report are
                                  described in Appendix A.

    Objectives, Scope,            Our objectives were to determine if Postal Service
    and Methodology               management: (1) followed sound systems development life
                                  cycle processes, (2) produced key deliverables as identified
                                  by Postal Service management and industry standards, and
                                  (3) considered appropriate application security features
                                  during the testing and information security process points of
                                  the development of eServices Registration application.

                                  To accomplish our objectives, we reviewed test plans,
                                  design and application requirement documents, and
                                  information security documents. We also reviewed test
                                  scripts to determine if testing of the eServices Registration
                                  application was meeting the applicable requirements.

                                  We conducted audit fieldwork at Postal Service
                                  Headquarters and at the National Customer Support Center
                                  in Memphis, Tennessee, from September through
                                  October 2001. In addition, we reviewed applicable laws and
                                  regulations, as well as industry standards and industry best
                                  practices.4 This audit was conducted from September 2001
                                  through March 2002 in accordance with generally accepted
                                  government auditing standards, and included such tests of
                                  internal controls as were considered necessary under the
                                  circumstances. We discussed our conclusions and
                                  observations with appropriate management officials and
                                  included their comments, where appropriate. We did not
                                  rely on computer generated data to accomplish our
                                  objectives.

    Prior Audit Coverage	         Our September 29, 2000, report, State of Computer
                                  Security in the Postal Service (Report Number IS-AR-00-
                                  004) cited that: (1) many Postal Service managers were not


4
  We used Carnegie Mellon’s Capability Maturity Model, Postal Service’s Software Process Standards and
Procedures, and Information System Audit and Control Association’s Control Objectives for Information
Technology.



                                                   2
                                        Restricted Information
eServices Registration Application                                               EM-AR-02-004
 Development Review


                                fully aware of their responsibilities for computer security
                                and, viewed computer security as the sole responsibility of
                                the Information Technology office; (2) a lack of security
                                awareness has resulted in less than sufficient emphasis
                                placed on planning and budgeting for computer security;
                                (3) policies and procedures for computer security were
                                nonexistent, outdated, or oftentimes not implemented or
                                followed; and (4) the National Information Systems Security
                                organization did not have computer security enforcement
                                authority, and was understaffed, underfunded, and not
                                visible postal-wide. Management agreed with the Office of
                                Inspector General’s (OIG’s) recommendations and indicated
                                they are working to address the issues.




                                               3
                                     Restricted Information
eServices Registration Application                                                                          EM-AR-02-004
 Development Review


                                          AUDIT RESULTS
    Systems                          Program management did not follow an established systems
    Development Life                 development life cycle methodology during testing of the
    Cycle Methodology                eServices Registration application. Specifically: (1) system
    Not Followed During              testing did not include tests of all critical security features,
    System Testing                   (2) end users requirements were not always incorporated
                                     into customer acceptance testing, (3) test results were not
                                     formally documented, retained or approved, and (4) a
                                     software quality assurance representative was not assigned.
                                     As a result, program management could not ensure that the
                                     system met functional requirements or satisfy end user’s
                                     requirements.

                                     Testing determines whether a software product meets its
                                     stated requirements. There are four levels of testing: (1) ?unit
                                     tests ensure each module works correctly; (2) ?integration
                                     tests examine the development of each subsystem;
                                     (3) ?system tests examine the entire system, including
                                     subsystem interfaces, system documentation, and overall
                                     functionality, to validate the design requirements have been
                                     met; and (4) customer acceptance testing, performed jointly
                                     with the end user, ensure that the system meets the end
                                     user’s requirements.

    No Testing of Critical           The program management team did not ensure that critical
    Security Features                security features were tested. Specifically, cookies5 were
                                     not tested for known vulnerabilities such as corruption of
                                     data stored within cookies and viewing of cookies data by
                                     unauthorized personnel. In addition, intervals for refreshing
                                     the digital certificate6 key set were not established and
                                     tested. Further, security features such as audit trails,
                                     encryption, and Secure Socket Layer,7 while specified in the
                                     integration approach and software/hardware architecture
                                     documents, were not included in the testing requirements.

                                     Industry best practices recommend the testing of all
                                     programs, data, security functions/features, and technology
                                     requirements.



5
  A cookie generally is a short string of text that gathers information about the web user and his/her web­
serving habits, and then returns this information back to the originating web-server.
6
  A digital certificate is an electronic message that identifies the certificate authority, and the certificate
owner, contains the owner’s public key, identifies the certificate’s operational period, contains a certificate
serial number, and is digitally signed by the Certificate Authority.
7
  Secure Socket Layer is industry standard technology used to protect web communications.

                                                        4
                                            Restricted Information
eServices Registration Application                                                    EM-AR-02-004
 Development Review


                                This occurred because program management did not map
                                test plans to system requirements documents, Postal
                                Service policies and procedures, and applicable laws to
                                ensure all requirements were tested.

                                As a result, there is an increased risk the eServices
                                Registration application would be implemented with serious
                                security weaknesses. For example, cookies data may be
                                corrupted or viewed by unauthorized personnel.

 Recommendations                We recommend the senior vice president, chief technology
                                officer:

                                       1.	 Map existing test plans to system requirements
                                           documents, security requirements, as well as
                                           applicable sections of Section 508 of the
                                           Rehabilitation Act, Privacy Act of 1974, and Postal
                                           Service policies and procedures.

                                       2.	 Ensure test plans include tests of system
                                           requirements, perform tests, and take appropriate
                                           action(s) as required.

 Management’s                   Management has terminated the eServices Registration
 Comments                       application and plans to incorporate many of the
                                recommendations in the new integrated systems
                                methodology being used to modify the eCapabilities
                                registration application. For that reason, management did
                                not see any value in addressing specific recommendations
                                contained in this report.

 Evaluation of                  Management’s comments were responsive to our findings
 Management’s                   and recommendations. We recommend closure of these
 Comments                       recommendations.

 End User                       Program management did not incorporate several end user
 Requirements Were              requirements into the customer acceptance testing efforts.
 Not Always                     Although many end user requirements were incorporated,
 Incorporated                   we found instances where they were not incorporated. For
                                example, an end user indicated the testing did not include
                                the following requirements: (1) specific information for all
                                NetPost Certified affiliated users, (2) population of edit fields
                                for user address and organization information, and
                                (3) capturing the user authorization identification.



                                               5
                                     Restricted Information
eServices Registration Application                                                 EM-AR-02-004
 Development Review



                                Industry best practices recommend that the development
                                test team include end users in test reviews of system
                                requirements and the final requirements document.

                                This occurred because the eServices Registration
                                application development team had not incorporated all of the
                                approved end user requirements at the time customer
                                acceptance testing occurred. In addition, the development
                                team did not involve end users in developing the customer
                                acceptance testing test plan.

                                As a result, end users stated the system does not meet their
                                business needs and may result in a loss of customer base
                                and income. For example, the system does not populate
                                edit fields with stored information on user address and
                                organization information, but instead requires the end user
                                to re-enter this information.

 Recommendation                 We recommend the senior vice president, chief technology
                                officer:

                                      3.	 Direct program management to incorporate end
                                          user requirements into the next release of the
                                          eServices Registration application requirements
                                          document and customer acceptance testing
                                          requirements, and involve end users in developing
                                          future customer acceptance tests.

 Management’s                   Management has terminated the eServices Registration
 Comments                       application and plans to incorporate many of the
                                recommendations in the new integrated systems
                                methodology being used to modify the eCapabilities
                                registration application. For that reason, management did
                                not see any value in addressing specific recommendations
                                contained in this report.

 Evaluation of                  Management’s comments were responsive to our finding
 Management’s                   and recommendation. We recommend closure of this
 Comments                       recommendation.

 Unit Test Results Were         Program management did not ensure that test results were
 Not Formally                   formally documented, retained or approved. Specifically,
 Documented,                    unit test results were not documented or retained. Further,
 Retained, or Approved          unit and integration test results were not formally approved
                                prior to moving the system to the next phase of testing.

                                               6
                                     Restricted Information
eServices Registration Application                                                   EM-AR-02-004
 Development Review


                                Industry best practices recommend that all unit test results
                                should be documented in preparation for inspection,
                                resolution of issues resulting from inspection, and base
                                lining. In addition, industry best practices recommend that
                                management define and implement procedures to ensure
                                that operations and user management formally accepted the
                                test results.

                                This occurred because program management had not
                                followed industry best practices to ensure all test results
                                were documented, retained or approved.

                                Therefore, the Postal Service has no assurance testing was
                                accomplished and deficiencies noted during testing were
                                corrected. Additionally, development team members were
                                unable to benchmark new test results against old test
                                results.

 Recommendation	                We recommend the senior vice president, chief technology
                                officer:

                                       4.	 Ensure test results are documented, retained, and
                                           approved prior to moving to the next phase of
                                           development. Once completed, retest, as
                                           appropriate.

 Management’s                   Management has terminated the eServices Registration
 Comments                       application and plans to incorporate many of the
                                recommendations in the new integrated systems
                                methodology being used to modify the eCapabilities
                                registration application. For that reason, management did
                                not see any value in addressing specific recommendations
                                contained in this report.

 Evaluation of                  Management’s comments were responsive to our finding
 Management’s                   and recommendation. We recommend closure of this
 Comments                       recommendation.




                                               7
                                     Restricted Information
eServices Registration Application                                                                 EM-AR-02-004
 Development Review



    Software Quality              Program management did not appoint an independent
    Assurance                     software quality assurance8 representative.
    Representative Not            Industry best practices states that at project initiation a
    Assigned                      software quality assurance representative should be
                                  appointed to independently facilitate the development,
                                  ensure all requirements are met, and deliver the system on
                                  time at the lowest possible cost.

                                  This occurred because program management did not follow
                                  existing industry best practice or establish an alternate
                                  system of controls.

                                  As a result, program management cannot ensure that the
                                  development process was appropriately monitored,

                                  established standards were followed, and system
                                  inadequacies were brought to management’s attention.

    Recommendation	               We recommend the senior vice president, chief technology
                                  officer:

                                           5.	 Appoint an independent software quality
                                               assurance representative to the eServices
                                               Registration application project.

    Management’s                  Management has terminated the eServices Registration
    Comments                      application and plans to incorporate many of the
                                  recommendations in the new integrated systems
                                  methodology being used to modify the eCapabilities
                                  registration application. For that reason, management did
                                  not see any value in addressing specific recommendations
                                  contained in this report.

    Evaluation of                 Management’s comments were responsive to our finding
    Management’s                  and recommendation. We recommend closure of this
    Comments                      recommendation.




8
 The Software Quality Assurance Representative independently facilitates the development of defect free
products that meet all requirements and are delivered on time at the lowest possible cost.

                                                    8
                                         Restricted Information
eServices Registration Application                                                EM-AR-02-004
 Development Review




 Key Deliverables Not           Program management did not ensure key deliverables were
 Always Produced                produced, reviewed, and conducted before the planned
                                system implementation. Specifically, they did not produce
                                the operational readiness plan, deployment plan,
                                performance test plan, data migration process plan, and
                                business continuity and contingency plan.

                                Industry best practices recommend the project management
                                team establish a project tracking schedule/reporting
                                mechanism for development efforts. Further, it sets forth
                                that comprehensive testing of systems must be performed to
                                increase both the quality of systems delivered and the level
                                of user satisfaction with those systems.

                                In addition, the information security policy states that
                                business continuity and contingency planning is required for
                                all information resources. The business continuity and
                                contingency plan should provide cost effective recovery,
                                protection of assets, and continuity of business operations.

                                This occurred because program management attempted to
                                meet an unrealistic system implementation date set by
                                Postal Service management. In addition, the development
                                team had unexpected delays due to connectivity problems
                                with other applications and contract coordination.
                                Furthermore, the team anticipated using a contractor to
                                develop a business continuity and contingency plan,
                                however, they did not allocate time to put contractual
                                documents in place.

                                As a result, there was an increased risk that the system
                                would not be fully tested, properly deployed, and data would
                                not be properly migrated during conversion. Furthermore,
                                without a business continuity and contingency plan, the
                                Postal Service may be unable to support the application in
                                the event of a failure which may result in a loss of revenue
                                and customer confidence.




                                               9
                                     Restricted Information
eServices Registration Application                                               EM-AR-02-004
 Development Review




 Recommendation	                We recommend the senior vice president, chief technology
                                officer:

                                      6.	 Complete the eServices Registration application
                                          operational readiness plan, deployment plan,
                                          performance test plan, data migration process
                                          plan, and a business continuity and contingency
                                          plan.

 Management’s                   Management has terminated the eServices Registration
 Comments                       application and plans to incorporate many of the
                                recommendations in the new integrated systems
                                methodology being used to modify the eCapabilities
                                registration application. For that reason, management did
                                not see any value in addressing specific recommendations
                                contained in this report.

 Evaluation of                  Management’s comments were responsive to our finding
 Management’s                   and recommendation. We recommend closure of this
 Comments                       recommendation.




                                              10
                                     Restricted Information
eServices Registration Application                                                  EM-AR-02-004
 Development Review




 Information Security           During the information security process, the independent
 Assurance Validation           validation of security requirements was not performed.
 Not Accomplished               Instead, the Certification and Accreditation teams relied on
                                the project development team’s assertions that security
                                requirements were adequate, as well as results from OIG
                                and other external reviews.

                                Postal Service’s AS-850-97-3, Security Certification and
                                Accreditation of Sensitive Applications and Systems require
                                the Certification team, lead by the Information Systems
                                security officer, to review and validate the system security
                                requirements.

                                Security requirements were not validated because the
                                Information Systems security officer did not believe the
                                policy required an independent validation of security
                                requirements. However, our review of the policy indicated
                                that the Information Systems security officer’s
                                responsibilities include leading a review and validating
                                security requirements.

                                Independent validation is a critical control to safeguard the
                                integrity, confidentiality, and availability of Postal Service
                                information and to protect the interests of the Postal Service,
                                its personnel, its business partners, and the general public.

 Recommendation	                We recommend the senior vice president, chief technology
                                officer:

                                       7.	 Ensure independent testing and validation of
                                           security requirements are performed.

 Management’s                   Management has terminated the eServices Registration
 Comments                       application and plans to incorporate many of the
                                recommendations in the new integrated systems
                                methodology being used to modify the eCapabilities
                                registration application. For that reason, management did
                                not see any value in addressing specific recommendations
                                contained in this report.

 Evaluation of                  Management’s comments were responsive to our finding
 Management’s                   and recommendation. We recommend closure of this
 Comments                       recommendation.



                                              11
                                     Restricted Information
eServices Registration Application                                                               EM-AR-02-004
 Development Review




    Other Observations 	         Although not part of the testing of information security
                                 processes, the eServices Registration application
                                 development team used software that had not been
                                 approved by the Infrastructure Tool Kit Requirement
                                 Committee.9 Specifically, during the development effort the
                                 team used web-based tools, such as IPlanet version 4.1 and
                                 Jrun. The IPlanet software is included in the current version
                                 of the approved Netscape Enterprise Server. However, no
                                 one could verify that all components of the IPlanet software
                                 were approved.

                                 The Infrastructure Tool Kit provides guidelines on tools that
                                 support the development, deployment, and management of
                                 distributed applications. It includes a list of tools approved
                                 for use by Postal Service Information Technology,
                                 Architecture, and Engineering. When existing web-based
                                 tools change names or new versions are issued, the
                                 Infrastructure Tool Kit guidelines require the tool to go
                                 through the approval process.

                                 This occurred because program management did not wait
                                 for approval of the web-based tools prior to use. The tools
                                 selected were common industry tools that program
                                 management had submitted to the Infrastructure Tool Kit
                                 Requirement Committee and expected to be approved.

                                 As a result, the eServices Registration application
                                 development team utilized software products that may not
                                 receive continued support from the vendor. In addition, if
                                 the Infrastructure Tool Kit Requirement Committee does not
                                 approve the software, the eServices Registration application
                                 cannot be hosted or used on the Postal Service
                                 infrastructure and would have to be redeveloped.

    Recommendation	              We recommend the senior vice president, chief technology
                                 officer:

                                          8.	 Ensure all software used in the development effort
                                              is approved by the Infrastructure Tool Kit
                                              Requirement Committee prior to use.




9
 The Infrastructure Tool Kit Requirement Committee is composed of information technology and customer
organization technical personnel.

                                                  12
                                        Restricted Information
eServices Registration Application                                              EM-AR-02-004
 Development Review


 Management’s                   Management has terminated the eServices Registration
 Comments                       application and plans to incorporate many of the
                                recommendations in the new integrated systems
                                methodology being used to modify the eCapabilities
                                registration application. For that reason, management did
                                not see any value in addressing specific recommendations
                                contained in this report.

 Evaluation of                  Management’s comments were responsive to our finding
 Management’s                   and recommendation. We recommend closure of this
 Comments                       recommendation.




                                              13
                                     Restricted Information
eServices Registration Application                                                   EM-AR-02-004
 Development Review


                             APPENDIX A. GLOSSARY
Term                        Description

Accreditation               The official management authorization to operate a system

Business Continuity         Business continuity and contingency plan is a total management
and Contingency             approach to providing cost-effective recovery, protection of assets,
Plan                        and continuity of business operations.

Certification               A process that develops a technical opinion and supporting
                            documentation as to whether a system meets its security
                            requirements.

Certification and           The certification and accreditation team is responsible for working
Accreditation Team          with the customer of the system and developers to ensure that
                            certain basic security controls are incorporated into all sensitive
                            systems during the design and development stages.

Cookie                      A cookie generally is a short string of text that gathers information
                            about the web user and his/her web-serving habits, and then
                            returns this information back to the originating web-server.

Design and                  The design and application requirements document is used to
Application                 verify that requirements and design interfaces have been
Requirements                developed correctly.
Document

Digital Certificate         A digital certificate is an electronic message that identifies the
                            certificate authority, identifies the certificate owner, contains the
                            owner’s public key, identifies the certificate’s operational period,
                            contains a certificate serial number, and is digitally signed by the
                            certificate authority.

Encryption                  Encryption is the conversion of data into a form, called ciphertext
                            that cannot be easily understood.

Information Systems         Information Systems security officer performs the security
Security Officer            certification process of the system and chairs the security
                            certification committee.

Infrastructure Tool         The infrastructure tool kit requirement committee is composed of
Kit Requirement             information technology and customer organization technical
Committee                   personnel.




                                              14
                                     Restricted Information
eServices Registration Application                                                  EM-AR-02-004
 Development Review


                   APPENDIX A. GLOSSARY (Continued)
Login Functionalities	 Login functionalities provide a centralized platform for Postal
                       Service customers to register for a wide variety of Postal Service
                       services that have an Internet-based interface or capability
                       (eServices).

Rapid Application 	         Rapid application development is a system solution that allows
Development	                system developers to quickly begin either with or without clearly
                            specified client requirements, but with flexibility in addressing them
                            in an atmosphere of partnership between the end user and the
                            developers.

Secure Socket Layer	 Secure socket layer is industry standard technology used to protect
                     web communications.

Software Quality            The software quality assurance representative independently
Assurance                   facilitates the development of defect free products that meet all
Representative              requirements and are delivered on time at the lowest possible cost.

Systems                     A systems development life cycle is a logical process by which
Development Life            systems analysts, software engineers, programmers, and end
Cycle                       users build information systems and computer applications to solve
                            business problems and needs.

Test Plans	                 Test plans design and document a set of system tests to ensure
                            that the application system delivered meets all of the requirements
                            identified in the requirements document.

Unit Test	                  Testing determines whether a software product meets its stated
                            requirements. Unit tests make sure each load module works
                            correctly.




                                              15
                                     Restricted Information
eServices Registration Application                            EM-AR-02-004
 Development Review


               APPENDIX B. MANAGEMENT’S COMMENTS




                                              16
                                     Restricted Information
